JOE D. GONZALES

Criminal District Attorney
Bexar County, Texas

September 2, 2021
Re: No. 21-5327, Mark Anthony Gonzalez v. Texas
Clerk of the United States Supreme Court
filed electronically
Dear Clerk’s Office:
Petitioner Mark Anthony Gonzalez was convicted of capital murder in this county
in 2015 and subsequently sentenced to death. Last month he filed a petition for writ of
certiorari in this Court, which was placed on the Court’s docket on August 9, 2021. This
triggered the necessity of this office’s filing a brief in opposition by September 8th, which
is Wednesday of next week. There is no execution date set or pending.
I am the lead appellate prosecutor in the case, so will be filing the brief in
opposition. I was admitted to the bar of this Court April 17, 2006. This letter is to
request a thirty-day extension of time for filing that brief.
On August 2nd I started a two-week state writ hearing in this same case. On
August 9th I was in the middle of that hearing. The following week we were dealing with
follow-up issues from that hearing.
While I had agreed to accept service from Respondent’s attorneys, I did not realize
at that time and in the midst of the writ hearing that this Court’s rules require a brief in
opposition to petitions for certiorari in death penalty cases. Since Monday is a holiday,
there are now less than four business days remaining before that brief is due. That is too
little time to devote to a matter as serious as this one.
Respondent requests an extension of time of thirty days to file the brief in
opposition to Petitioner’s petition. This would make the brief due on October 8, 2021.
Thank you for your time and attention to this matter.

Paul Elizondo Tower – 101 W. Nueva St., Fourth Floor - San Antonio, Texas 78205
(210) 335-2311
For Victim Assistance call (210) 335-2105

Very truly yours,
___/s/Jay Brandon_____
State Bar No. 02880500

copy: Ms. Mridula Saroja Raman, counsel for Petitioner

Paul Elizondo Tower – 101 W. Nueva St., Fourth Floor - San Antonio, Texas 78205
(210) 335-2311
For Victim Assistance call (210) 335-2105

